FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

IV.

CONCLUSION

We AFFIRM Cooper’s convictions and
sentence.

,
FORD MOTOR COMPANY,
Plaintiff-Appellee
v.
UNITED STATES, Defendant-Appellant
2018-1018
United States Court of Appeals,
Federal Circuit.
Decided: June 7, 2019
Background: Automobile manufacturer
sought review of U.S. Customs and Border
Protection’s (CBP) classification of vehicles
as vehicles used principally for the transport of goods under Harmonized Tariff
Schedule of the United States (HTSUS).
The United States Court of International
Trade, Mark A. Barnett, J., 254 F.Supp.3d
1297, denied government’s cross-motion
for summary judgment and granted manufacturer’s cross-motion. Government appealed.
Holdings: The Court of Appeals, Wallach,
Circuit Judge, held that:
(1) HTSUS heading covering motor vehicles principally designed for the transport of persons is an eo nomine provision for which consideration of use is
appropriate;
(2) imported vehicles were not principally
designed for the transport of persons,
and thus did not fall within HTSUS
heading covering motor vehicles principally designed for the transport of persons;

741

(3) imported vehicles were principally, if
not exclusively, used for transport of
goods and thus fell under HTSUS
heading for motor vehicles for the
transport of goods; and
(4) imported vehicles fell under HTSUS
subheading for vehicles, other than
dumpers designed for off-highway use,
with spark-ignition internal combustion
piston engines.
Reversed.

1. Customs Duties O85(3)
The Court of Appeals reviews the
Court of International Trade’s (CIT) decision to grant summary judgment de novo,
applying the same standard used by the
CIT to assess Customs and Board Protection’s classification under Harmonized Tariff Schedule of the United States.
2. Customs Duties O85(3)
Although the Court of Appeals reviews the decision of the Court of International Trade (CIT) de novo, it gives great
weight to the informed opinion of the CIT
and it is nearly always the starting point of
its analysis.
3. Customs Duties O17
The classification of merchandise under Harmonized Tariff Schedule of the
United States involves a two-step inquiry:
first, the court ascertains the meaning of
the terms within the relevant tariff provision, which is a question of law, and, second, it determines whether the subject
merchandise fits within those terms, which
is a question of fact.
4. Customs Duties O85(3)
Where no genuine dispute exists as to
the nature of the subject merchandise, the
two-step inquiry for classifying merchandise under the Harmonized Tariff Sched-

742

926 FEDERAL REPORTER, 3d SERIES

ule of the United States collapses into a
question of law the courts review de novo.
5. Customs Duties O17
The Harmonized Tariff Schedule of
the United States governs the classification of merchandise imported into the
United States.
6. Customs Duties O17
The General Rules of Interpretation
(GRI) for the Harmonized Tariff Schedule
of the United States (HTSUS) apply in
numerical order, meaning that subsequent
rules are inapplicable if a preceding rule
provides proper classification.
7. Customs Duties O17
Under the General Rules of Interpretation (GRI) for the Harmonized Tariff
Schedule of the United States (HTSUS),
the Court of Appeals first construes the
language of the heading, and any section
or chapter notes in question, to determine
whether the product at issue is classifiable
under the heading; the possible headings
are to be evaluated without reference to
their subheadings, which cannot be used to
expand the scope of their respective headings.
8. Customs Duties O17, 18
Absent contrary legislative intent,
Harmonized Tariff Schedule of the United
States (HTSUS) terms are to be construed
according to their common and commercial
meanings, which are presumed to be the
same.
9. Customs Duties O17
To discern the common meaning of a
tariff term, courts may consult dictionaries, scientific authorities, and other reliable
information sources.
10. Customs Duties O17
In interpreting tariff terms, courts
may consider the relevant Explanatory
Notes (EN), which provide persuasive

guidance and are generally indicative of
the proper interpretation, though they do
not constitute binding authority.
11. Customs Duties O17, 19
Harmonized Tariff Schedule of the
United States (HTSUS) heading covering
motor vehicles principally designed for the
transport of persons is an eo nomine provision for which considerations of use, subject merchandise’s condition as imported,
and pre-importation design goals are appropriate because the heading inherently
suggests looking to intended use. Harmonized Tariff Schedule, HTSUS 8703.
12. Customs Duties O17, 19
In determining the classification of
goods under Harmonized Tariff Schedule
of the United States (HTSUS), the court
first must assess whether the subject
heading constitutes an eo nomine or use
provision, because different rules and analysis will apply depending upon the heading
type.
13. Customs Duties O17
Courts consider a Harmonized Tariff
Schedule of the United States (HTSUS)
heading or subheading an eo nomine provision when it describes an article by a
specific name.
14. Customs Duties O17
Absent limitation or contrary legislative intent, an eo nomine provision in Harmonized Tariff Schedule of the United
States (HTSUS) includes all forms of the
named article, even improved forms.
15. Customs Duties O19
Generally, a use limitation should not
be read into an eo nomine provision in
Harmonized Tariff Schedule of the United
States (HTSUS); however, doing so may
be appropriate where the name itself inherently suggests a type of use.

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

16. Customs Duties O19
Once tariff terms have been defined,
use of the subject articles may define an
article’s identity when determining whether it fits within the classification’s scope.
17. Customs Duties O17
In order to produce uniformity in the
imposition of duties, the dutiable classification of articles imported must be ascertained by an examination of the imported
article itself, in the condition in which it is
imported.
18. Customs Duties O26(2)
Imported vehicles were not principally
designed for the transport of persons, and
thus did not fall within Harmonized Tariff
Schedule of the United States (HTSUS)
heading covering motor vehicles principally designed for the transport of persons;
although many structural design features
of vehicles, including sharing the same
chassis and drivetrain with a passenger
vehicle, the engine size, suspension, rear
passenger seats, doors with windows, and
safety features, favored a finding that vehicles were designed for transport of passengers, lack of auxiliary design features
such as rear headrests, certain comfort
wires, rear side air bags, and rear speakers, fact that second row seats were designed to be low-cost and removed during
post-importation processing, and manufacturer’s market research and advertising
indicated that vehicles’ intended purpose
was transport of cargo. Harmonized Tariff Schedule, HTSUS 8703.
19. Customs Duties O26(2)
The relevant inquiry for classification
under Harmonized Tariff Schedule of the
United States (HTSUS) heading covering
motor vehicles principally designed for the
transport of persons is that a vehicle’s
intended purpose of transporting persons
must outweigh an intended purpose of
transporting goods and that, to make this

743

determination, both the structural and
auxiliary design features must be considered.
20. Customs Duties O26(2)
In considering the structural and auxiliary design features of a vehicle to determine whether it falls under Harmonized
Tariff Schedule of the United States
(HTSUS) heading covering motor vehicles
principally designed for the transport of
persons, ‘‘structural design features’’ include basic body, chassis, suspension design, and style and structure of the body
control access to rear, and ‘‘auxiliary design features’’ include vehicle height, certain features of the rear seats, footwells,
seat belts, and other passenger amenities.
See publication Words and Phrases
for other judicial constructions and
definitions.

21. Customs Duties O26(2)
In determining whether merchandise
falls under Harmonized Tariff Schedule of
the United States (HTSUS) heading covering motor vehicles principally designed for
the transport of persons, certain use considerations may be relevant, such as the
marketing and engineering design goals,
including consumer demands, off the line
parts availability, etc.
22. Customs Duties O19
When evaluating principal use of imported merchandise for purpose of classification under Harmonized Tariff Schedule
of the United States (HTSUS), a court
makes a determination as to the group of
goods that are commercially fungible with
the imported goods.
23. Customs Duties O19
To determine the group of goods that
are commercially fungible with imported
goods, for purpose of classifying imported
merchandise under Harmonized Tariff
Schedule of the United States (HTSUS), a

744

926 FEDERAL REPORTER, 3d SERIES

court may look to the factors outlined in
United States v. Carborundum Co., 536
F.2d 373: (1) the general physical characteristics of the merchandise; (2) use in the
same manner as merchandise which defines the class; (3) the expectation of the
ultimate purchasers; (4) the environment
of the sale, such as accompanying accessories and the manner in which the merchandise is advertised and displayed; (5) the
economic practicality of so using the import; (6) the channels of trade in which the
merchandise moves; and (7) the recognition in the trade of this use.
24. Customs Duties O26(2)
Imported vehicles were principally, if
not exclusively, used for transport of
goods, rather than passengers, and thus
fell under Harmonized Tariff Schedule of
the United States (HTSUS) heading for
motor vehicles for the transport of goods,
where such vehicles were made-to-order
and tailored to meet the specific needs of
consumers seeking to transport goods.
Harmonized Tariff Schedule, HTSUS 8704.
25. Customs Duties O19
Harmonized Tariff Schedule of the
United States (HTSUS) heading covering
motor vehicles for the transport of goods is
a principal use provision because the heading identifies the chief use of the covered
merchandise as of a kind used to transport
goods.
26. Customs Duties O19
In interpreting a Harmonized Tariff
Schedule of the United States (HTSUS)
heading, a principal use analysis involves
determining the use which exceeds any
other single use of the merchandise in the
United States.
27. Customs Duties O26(2)
Imported vehicles that were used for
the transport of goods fell under Harmonized Tariff Schedule of the United States

(HTSUS) subheading for vehicles, other
than dumpers designed for off-highway
use, with spark-ignition internal combustion piston engines, as subject vehicles had
spark-ignition internal combustion reciprocating piston engines. Harmonized Tariff
Schedule, HTSUS 8704.31.00.
28. Federal Courts O3733
Arguments raised only in footnotes
are waived.

Appeal from the United States Court of
International Trade in No. 1:13-cv-00291MAB, Judge Mark A. Barnett.
Peter D. Keisler, Sidley Austin LLP,
Washington, DC, argued for plaintiff-appellee. Also represented by Richard M.
Belanger, Barbara Guy Broussard, Daniel
J. Feith, Erika Maley, Gordon D. Todd.
Michael Shih, Appellate Staff, Civil Division, United States Department of Justice,
Washington, DC, argued for defendantappellant. Also represented by Jeanne
Davidson, Matthew James Glover, Joseph
H. Hunt; Beverly A. Farrell, Jason M.
Kenner, Amy Rubin, International Trade
Field Office, Commercial Litigation
Branch, Civil Division, United States Department of Justice, New York, NY; Yelena Slepak, Office of the Assistant Chief
Counsel, United States Bureau of Customs
and Border Protection, United States Department of Homeland Security, New
York, NY.
Before Dyk, Wallach, and Hughes,
Circuit Judges.
Wallach, Circuit Judge.
Appellee Ford Motor Company (‘‘Ford’’)
sued Appellant United States (‘‘the Government’’) in the U.S. Court of International Trade (‘‘CIT’’), challenging U.S.
Customs and Border Protection’s (‘‘Cus-

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

toms’’) classification of its model year
(‘‘MY’’) 2012 Transit Connect 6/7 1 vehicles
under Harmonized Tariff Schedule of the
United States (‘‘HTSUS’’)2 Subheading
8704.31.00, which bears a duty rate of 25%
ad valorem. Ford and the Government
filed cross-motions for summary judgment,
with Ford contending that its subject merchandise is properly classified under
HTSUS Subheading 8703.23.00, which
bears a lower duty rate of 2.5% ad valorem. The CIT denied the Government’s
Cross-Motion and granted Ford’s CrossMotion, thereby holding that Ford’s proposed classification under HTSUS Subheading 8703.23.00 is correct. Ford Motor
Co. v. United States, 254 F. Supp. 3d 1297,
1333 (Ct. Int’l Trade 2017); see J.A. 75–76
(Judgment).

745

Transit Connect vehicles on its then-existing European V227 line of vehicles and
imported the Transit Connects from its
factory in Turkey. See id. at 1305. Specifically, ‘‘Ford’s European V227 line included’’ (1) ‘‘the double-cab-in-van (DCIV)’’ and
(2) ‘‘the Cargo Van.’’ Id. (internal quotation marks and citations omitted). ‘‘Ford
based the subject merchandise on its European V227 DCIV, not its Cargo Van.’’ Id.
(citations omitted).

This appeal involves a single entry of
subject merchandise, ‘‘which entered at the
Port of Baltimore on December 26, 2011.’’
Ford, 254 F. Supp. 3d at 1303 (citation
omitted).3 Ford originally began importing
its line of Transit Connect 6/7s into the
United States in 2009. Id. at 1302. Ford
also produces a similar vehicle called the
Transit Connect 9. See id. at 1304 n.13.4
Ford based the design of both types of

Before importation into the United
States, Ford avers that it ‘‘modified the
European V227 DCIV to comply with all
relevant U.S. safety standards,’’ including
the Federal Motor Vehicle Safety Standards (‘‘FMVSS’’). Id. (citations omitted).
For instance, Ford redesigned the second
row of seats’ underbody support structure;
added side-impact beams and foam blocks
for protection; and changed the vehicle’s
lighting, labels, and turn signals. Id. at
1306. Moreover, ‘‘Ford designed the Transit Connect on the Ford Focus platform,
which means that’’ the two vehicle lines
share similar features, specifically, ‘‘[the
Transit Connect] has the same chassis and
drivetrain as the Ford Focus passenger
vehicle.’’ Id. (internal quotation marks,
brackets, and citations omitted). Ford designated its Transit Connects in the United
States as part of the V227N line, which
includes the Transit Connect Van (i.e., the
Transit Connect 6/7) and the Transit Connect Wagon (i.e., the Transit Connect 9).

1.

3.

Because the parties do not dispute the material facts, we cite to the CIT’s recitation of the
facts for ease of reference. See Ford, 254 F.
Supp. 3d at 1302–14.

4.

Like the Transit Connect 6/7s, the ‘‘Transit
Connect 9s contain the number 9 in the sixth
digit of the VIN.’’ Ford, 254 F. Supp. 3d at
1304 n.13 (citations omitted). The Transit
Connect 9s ‘‘are imported with a three-passenger second row seat.’’ Id. (citation omitted).

The Government appeals. We have jurisdiction pursuant to 28 U.S.C. § 1295(a)(5)
(2012). We reverse.
BACKGROUND
I.

2.

The Subject Merchandise

Transit Connect 6/7 refers to certain vehicles made by Ford from the Transit Connect
model line with vehicle identification numbers (‘‘VIN’’) containing ‘‘either a [number] 6
or 7 in the sixth digit.’’ J.A. 5540.
‘‘All citations to the HTSUS refer to the
20[11] version, as determined by the date of
importation of the merchandise.’’ LeMans
Corp. v. United States, 660 F.3d 1311, 1314
n.2 (Fed. Cir. 2011).

746

926 FEDERAL REPORTER, 3d SERIES

See id. at 1307 & n.18. Ford displayed its
Transit Connect models at auto shows and
advertised ‘‘in magazines and on auto
shopping websites.’’ Id. at 1306 (internal
quotation marks and citations omitted).
‘‘Each Transit Connect was built to order,’’
with all available customization options
identified in an online brochure. Id. (internal quotation marks and citations omitted).
At the time of importation, the subject
merchandise had several relevant characteristics. Ford specified the subject merchandise’s Gross Vehicle Weight Rating
(‘‘GVWR’’) as 5,005 pounds. See id. at
1307; see also 49 C.F.R. § 523.2 (2011)
(explaining that GVWR refers to ‘‘the value specified by the manufacturer as the
loaded weight of a single vehicle’’). The
Transit Connect 9, by contrast, had a
GVWR of 4,965 pounds. See Ford, 254 F.
Supp. 3d at 1307.5 The Transit Connect
6/7s had a ‘‘four cylinder gasoline engine,
TTT a steel unibody construction[,] TTT
front-wheel drive[,] rear passenger seats
with seat anchors[,] TTT underbody bracing[,] TTT front suspension[,] TTT and over
[fifty] inches of space from floor to ceiling
in the rear.’’ Id. (citations omitted). The
subject merchandise ‘‘had swing-out front
doors with windows, second-row sliding
doors with windows,’’ and ‘‘swing-out rear
doors, some of which had windows.’’ Id.
(internal quotation marks and citations
omitted). ‘‘[N]o Transit Connect 6/7s had a
panel or barrier between the first and
second row of seats.’’ Id. (internal quotation marks and citation omitted). When
imported, the subject merchandise had
‘‘second row seats; seat belts for every
seating position; permanent bracing in the
5.

Although the CIT recited that Transit Connect 9s ‘‘are assigned a GVWR of 4[,]695
pounds,’’ Ford, 254 F. Supp. 3d at 1307 (emphasis added) (citing J.A. 5945), this was
clearly a typographical error. The CIT cited to
the parties’ joint statement of undisputed
facts, which stipulated that those vehicles

side pillars of the car body,’’ as well as
‘‘child-locks in the sliding side doors; dome
lighting in the front, middle, and rear of
the vehicle; a full length molded cloth
headliner; coat hooks in the second row;
and a map pocket attached to the front
driver seat.’’ Id. (citations omitted). The
vehicles also had ‘‘front vents and front
speakers,’’ cup holders in the center and
rear console, and ‘‘carpeted footwells in
front of the second row seat.’’ Id. at 1307,
1308 (internal quotation marks and citation
omitted). However, the vehicles ‘‘did not
have rear (behind the front seats) vents,
speakers, TTT handholds’’; ‘‘side airbags in
the area behind the front seats’’; or ‘‘a
cargo mat.’’ Id. at 1308 (citations omitted).
‘‘[T]he painted metal floor of the cargo
area was left exposed.’’ Id. (citations omitted).
Central to the underlying dispute were
the Transit Connect 6/7s’ second row
seats. ‘‘[T]he second row seats TTT did not
include headrest[s], certain seatback wires,
a tumble lock mechanism, or accompanying labels, and were wrapped in cost-reduced fabric.’’ Id. (internal quotation
marks, brackets, and citations omitted).
When Ford began importing MY 2010
Transit Connect 6/7s (as opposed to the
MY 2012 versions at issue here), it used
rear seats similar to those that were eventually used in the MY 2012 Transit Connect 9s. See id. at 1308–09. To reduce
costs, Ford created, ‘‘[i]n mid-MY[ ]2010,’’
its ‘‘first cost-reduced seat (‘CRSV-1’),’’
which ‘‘resulted in the removal of the head
restraints, torsion bar assembly and
mount, tumble lock mechanism and associated labels, and backrest reinforcement
‘‘are assigned a GVWR of 4[,]965’’ pounds.
J.A. 5945 (emphasis added). Indeed, elsewhere, the CIT acknowledged the correct
number. See Ford, 254 F. Supp. 3d at 1326
(summarizing one of Ford’s arguments and
acknowledging ‘‘the Transit Connect 9’s
4[,]965 pound GVWR’’).

747

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

pad from the MY[ ]2010 Transit Connect
6/7 rear seat.’’ Id. at 1310 (citations omitted). Ford subsequently created its second
cost-reduced seat (‘‘CRSV-2’’), which are
the seats that were used in the subject
merchandise. See id. at 1311. These seats
‘‘incorporated the following changes from
CRSV-1’’: (1) ‘‘removal of four of the seven
seatback wires,’’ (2) ‘‘wrapping of the seat
in a cost-reduced fire-resistant grey woven
cover[,] TTT which is not the same as the
fabric used to cover the front seat,’’ (3)
‘‘replacement of the front leg seat anchor
cover, which was designed to attach to the
tumble lock mechanism, with a cover that
did not contain a space for the tumble lock
mechanism,’’ (4) ‘‘removal of the red indicator flags and housings associated with
the tumble lock mechanism to leave a bare
metal lever,’’ (5) ‘‘removal of the small
rubber pad from the rear seat leg intended
to decrease noise and vibration from
around the rear floor latches,’’ (6) removal
of ‘‘the fabric mesh covering the rear seat
bottom,’’ and (7) discontinuation of the application of the ‘‘black paint to the visible,
metal portions of the [rear] seat frame.’’
Id. (internal quotation marks, brackets,
and citations omitted). Although Ford’s
‘‘engineers concluded that the fabric
change and removal of seatback wires did
not affect the CRSV-2’s FMVSS compliance,’’ ‘‘Ford did not conduct consumer
testing or surveys before implementing the
CRSV-2.’’ Id. (internal quotation marks
and citations omitted).
After importation, Ford made several
changes to the subject merchandise once
the merchandise cleared Customs, but
while the imported merchandise ‘‘w[as]
still within the confines of the port.’’ Id. at
1312. For instance, all Transit Connects
underwent processing, such as ‘‘removing
TTT a protective covering,’’ ‘‘disengaging
Transportation Mode,’’ and ‘‘checking for
low fuel.’’ Id. (internal quotation marks
and citations omitted). The Transit Con-

nect 6/7s underwent ‘‘additional’’ processing (‘‘post-importation processing’’). Id.
Specifically, ‘‘the second-row seat[s were]
unbolted and removed, along with the associated second row safety restraints. A
steel panel was then bolted into the second
row footwell to create a flat surface behind
the first rows of seats.’’ Id. (footnote and
citations omitted). ‘‘A molded cargo mat
was placed over the floor behind the first
row,’’ ‘‘[s]cuff plates were added inside the
second-row doors,’’ and ‘‘[i]n some vehicles
the sliding door windows were replaced
with a solid panel.’’ Id. (citations omitted).
Therefore, ‘‘[a]ll Transit Connects are
imported with second row seats, but the
Transit Connect 6/7s are delivered to the
customer as a two seat cargo van.’’ Id. at
1307 (citations omitted). ‘‘The removed
seats were recycled or otherwise disposed
of.’’ Id. at 1312 n.36 (citation omitted).
Following this additional post-importation
processing, the Transit Connect 6/7s maintained the following features: ‘‘underbody
second-row seat support; anchors and fittings for the second-row seat[;] permanent
bracing in the side pillars to support the
removed safety restraints; and the beam
and foam in the side sliding doors for rear
passenger crash protection.’’ Id. at 1312
(footnote and citations omitted). However,
during the post-importation processing,
‘‘[t]he anchor holes for the second row seat
are plugged and no longer readily accessible.’’ Id. at 1312 n.38.
II.

Procedural History

In February 2012, ‘‘the Port of Baltimore notified Ford that [Customs] had
initiated an investigation into Ford TTT
importations.’’ Id. at 1314 (internal quotation marks and citations omitted). Following the investigation, in January 2013,
Customs found that the subject merchandise was properly classified under HTSUS
Heading 8704, specifically HTSUS Sub-

748

926 FEDERAL REPORTER, 3d SERIES

heading 8704.31.00. Customs Ruling HQ
H220856, 2013 WL 1793233, at *11 (Jan. 30
2013). Accordingly, Customs liquidated the
subject merchandise at the 25% duty rate
associated with HTSUS Subheading
8704.31.00. Ford, 254 F. Supp. 3d at 1303.
‘‘Ford timely and properly protested’’ this
decision. Id. Customs denied Ford’s protest. Id.
Ford filed a complaint with the CIT,
alleging Customs improperly denied its
protest. J.A. 98. The CIT held that the
subject merchandise should have been
classified under HTSUS Subheading
8703.23.00. Ford, 254 F. Supp. 3d at 1333.
The CIT evaluated the subject merchandise’s condition at the time of importation,
see id. at 1316–17, and concluded ‘‘the
Transit Connect 6/7’s structural and auxiliary design features point to a principal
design for the transport of persons,’’ id. at
1328. The CIT explained that ‘‘because
[HTSUS H]eading 8703 is not controlled
by use, and an assessment of intended use
is not necessary to distinguish [HTSUS
Heading] 8703 from 8704,’’ it found ‘‘it
unnecessary to consider principal or intended use, or the [relevant use] factors, to
define the tariff terms.’’ Id. at 1332. Furthermore, the CIT rejected the argument
that Ford’s post-importation processing
constituted a disguise or artifice, determining instead that Ford’s removal of the rear
seats ‘‘after importation is immaterial’’ and
that Ford engaged in legitimate tariff engineering. Id. at 1324 (footnote omitted).
DISCUSSION
I.

Standard of Review and
Legal Framework

[1, 2] We review the CIT’s decision to
grant summary judgment de novo, applying the same standard used by the CIT to
assess Customs’ classification. See Otter
Prods., LLC v. United States, 834 F.3d
1369, 1374–75 (Fed. Cir. 2016). ‘‘Although

we review the decision of the CIT de novo,
we give great weight to the informed opinion of the CIT and it is nearly always the
starting point of our analysis.’’ Schlumberger Tech. Corp. v. United States, 845 F.3d
1158, 1162 (Fed. Cir. 2017) (internal quotation marks, alterations, and citation omitted). Pursuant to U.S. Court of International Trade Rule 56(a), the CIT ‘‘shall
grant summary judgment if the movant
shows that there is no genuine dispute as
to any material fact and the movant is
entitled to judgment as a matter of law.’’
[3, 4] ‘‘The classification of merchandise involves a two-step inquiry.’’ ADC Telecomms., Inc. v. United States, 916 F.3d
1013, 1017 (Fed. Cir. 2019). First, we ascertain the meaning of the terms within
the relevant tariff provision, which is a
question of law, and, second, we determine
whether the subject merchandise fits within those terms, which is a question of fact.
See Sigma-Tau HealthSci., Inc. v. United
States, 838 F.3d 1272, 1276 (Fed. Cir.
2016). ‘‘Where, as here, no genuine dispute
exists as to the nature of the subject merchandise, the two-step inquiry collapses
into a question of law we review de novo.’’
ADC, 916 F.3d at 1017 (internal quotation
marks and citation omitted).
[5] The HTSUS governs the classification of merchandise imported into the
United States. See Wilton Indus., Inc. v.
United States, 741 F.3d 1263, 1266 (Fed.
Cir. 2013). The HTSUS ‘‘shall be considered TTT statutory provisions of law for all
purposes.’’ 19 U.S.C. § 3004(c)(1) (2012);
see Chemtall, Inc. v. United States, 878
F.3d 1012, 1026 (Fed. Cir. 2017) (explaining that ‘‘the tenth-digit statistical suffixes
TTT are not statutory,’’ as those suffixes
are not incorporated in the HTSUS’s legal
text). ‘‘The HTSUS scheme is organized by
headings, each of which has one or more
subheadings; the headings set forth gener-

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

al categories of merchandise, and the subheadings provide a more particularized
segregation of the goods within each category.’’ Wilton Indus., 741 F.3d at 1266.
‘‘The first four digits of an HTSUS provision constitute the heading, whereas the
remaining digits reflect subheadings.’’
Schlumberger, 845 F.3d at 1163 n.4. ‘‘[T]he
headings and subheadings TTT are enumerated in chapters 1 through 99 of the
HTSUS (each of which has its own section
and chapter notes) TTTT’’ R.T. Foods, Inc.
v. United States, 757 F.3d 1349, 1353 (Fed.
Cir. 2014). The HTSUS ‘‘also contains the
‘General Notes,’ the ‘General Rules of Interpretation’ (‘GRI’), the ‘Additional [U.S.]
Rules of Interpretation’ (‘ARI’), and various appendices for particular categories of
goods.’’ Id. (footnote omitted).
[6–9] The GRI and the ARI govern the
classification of goods within the HTSUS.
See Otter Prods., 834 F.3d at 1375. ‘‘The
GRI apply in numerical order, meaning
that subsequent rules are inapplicable if a
preceding rule provides proper classification.’’ Schlumberger, 845 F.3d at 1163. GRI
1 provides, in relevant part, that ‘‘classification shall be determined according to the
terms of the headings and any relative
section or chapter notes.’’ GRI 1 (emphasis
added). ‘‘Under GRI 1, [we] first construe[ ] the language of the heading, and
any section or chapter notes in question, to
determine whether the product at issue is
classifiable under the heading.’’ Schlumberger, 845 F.3d at 1163 (internal quotation
marks and citation omitted). ‘‘[T]he possible headings are to be evaluated without
reference to their subheadings, which cannot be used to expand the scope of their
respective headings.’’ R.T. Foods, 757 F.3d
at 1353 (citations omitted). ‘‘Absent contrary legislative intent, HTSUS terms are
to be construed according to their common
and commercial meanings, which are presumed to be the same.’’ Well Luck Co. v.

749

United States, 887 F.3d 1106, 1111 (Fed.
Cir. 2018) (internal quotation marks and
citation omitted). ‘‘To discern the common
meaning of a tariff term, we may consult
dictionaries, scientific authorities, and other reliable information sources.’’ Kahrs
Int’l, Inc. v. United States, 713 F.3d 640,
644 (Fed. Cir. 2013) (citation omitted). By
contrast, the ARI contain, inter alia, specific rules for interpreting use and textile
provisions in the HTSUS. See ARI 1(a)–
(d); Schlumberger, 845 F.3d at 1163 n.5
(explaining that the ARI do not apply to eo
nomine provisions). ARI 1(a) provides
that, when a tariff provision is ‘‘controlled
by use (other than actual use),’’ then classification ‘‘is to be determined in accordance
with the use in the United States at, or
immediately prior to, the date of importation, of goods of that class or kind to which
the imported goods belong, and the controlling use is the principal use.’’ ARI 1(b)
governs classification by ‘‘actual use,’’ rather than principal use.
[10] We may also consider the relevant
Explanatory Notes (‘‘EN’’). Fuji Am.
Corp. v. United States, 519 F.3d 1355, 1357
(Fed. Cir. 2008). ‘‘The [ENs] provide persuasive guidance and are generally indicative of the proper interpretation, though
they do not constitute binding authority.’’
Chemtall, 878 F.3d at 1019 (internal quotation marks and citation omitted).
Once we determine the appropriate
heading, we apply GRI 6 to determine the
appropriate subheading. See Orlando Food
Corp. v. United States, 140 F.3d 1437, 1442
(Fed. Cir. 1998). GRI 6 provides that ‘‘the
classification of goods in the subheadings
of a heading shall be determined according
to the terms of those subheadings and any
related subheading notes and, mutatis
mutandis, to the above [GRIs], on the
understanding that only subheadings at
the same level are comparable.’’

750
II.

926 FEDERAL REPORTER, 3d SERIES

The CIT Erred in Granting Summary
Judgment for Ford and Denying Summary Judgment for the Government
A.

HTSUS Heading 8703 Is an
Eo Nomine Provision that
Inherently Suggests Use

[11] HTSUS Heading 8703 covers
‘‘[m]otor cars and other motor vehicles
principally designed for the transport of
persons (other than those of [HTSUS
H]eading 8702), including station wagons
and racing cars.’’ The CIT found that an
examination of the vehicle’s use was not
‘‘necessary or helpful to arriving at the
correct classification.’’ Ford, 254 F. Supp.
3d at 1331. The Government contends the
CIT erred by classifying the subject merchandise under HTSUS Heading 8703,
contrary to Customs’ classification. See
Appellant’s Br. 17. The Government argues Customs correctly determined that
‘‘the overwhelming majority of [the relevant design features] indicated that the
[Transit] Connect 6/7 is not principally designed for the transport of persons.’’ Id. at
19 (internal quotation marks omitted). According to the Government, it was proper
for Customs to consider, inter alia, factors
that are typically used to evaluate the
imported product’s use in the United
States. See id. at 36. We agree, in part,
with the Government, and hold the CIT
erred by refusing to consider intended use
as part of its analysis.
[12–16] ‘‘We first must assess whether
the subject [h]eading[ ] constitute[s an] eo
nomine or use provision[ ] because different rules and analysis will apply depending upon the heading type.’’ Schlumberger,
845 F.3d at 1164 (first citing Kahrs, 713
F.3d at 645–46 (defining eo nomine provision); then citing Aromont USA, Inc. v.
United States, 671 F.3d 1310, 1312–16
(Fed. Cir. 2012) (defining principal use
provision)). ‘‘[W]e consider a HTSUS
heading or subheading an eo nomine pro-

vision when it describes an article by a
specific name.’’ CamelBak Prods., LLC v.
United States, 649 F.3d 1361, 1364 (Fed.
Cir. 2011) (citation omitted). ‘‘Absent limitation or contrary legislative intent, an eo
nomine provision includes all forms of the
named article, even improved forms.’’ Id.
at 1364–65 (internal quotation marks,
brackets, and citation omitted). Generally,
‘‘a use limitation should not be read into
an eo nomine provision.’’ Carl Zeiss, Inc.
v. United States, 195 F.3d 1375, 1379 (Fed.
Cir. 1999). However, doing so may be appropriate where ‘‘the name itself inherently suggests a type of use.’’ Id. Alternatively, ‘‘once tariff terms have been defined,
TTT use of the subject articles [may] define[ ] an article[’]s[ ] identity when determining whether it fits within the classification’s scope.’’ GRK Can., Ltd. v. United
States, 761 F.3d 1354, 1359 (Fed. Cir.
2014).
Although HTSUS Heading 8703 is an eo
nomine provision, the ‘‘principally designed for’’ portion inherently suggests a
type of use, i.e., ‘‘the transport of persons.’’
In Marubeni America Corp. v. United
States (Marubeni II), we considered the
proper classification of Nissan’s Pathfinder
vehicle, examining the same two headings
as the present appeal, and affirmed the
CIT’s conclusion that the subject merchandise was properly classified under HTSUS
Heading 8703, as opposed to HTSUS
Heading 8704. See 35 F.3d 530, 532 (Fed.
Cir. 1994). In interpreting HTSUS Heading 8703, Marubeni II explained that the
relevant dictionary definitions from Webster’s Third New International Dictionary
of the English Language (1986) define
‘‘ ‘principally’ as ‘in the chief place, chiefly[ ]’ and TTT ‘designed’ as ‘done by design
or purposefully opposed to accidental or
inadvertent; intended, planned.’ ’’ Id. at
534. Given these definitions, HTSUS
Heading 8703’s purposeful language—that

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

asks whether the merchandise is chiefly
intended for the transportation of persons—inherently suggests intended use.
See id.
We have held in other cases that an eo
nomine provision may require looking to
intended use. In GRK, we considered a
tariff heading for ‘‘other wood screws’’ and
explained that central to the ‘‘common understanding’’ of that heading is the ‘‘intended use of [the] screws’’ because the
tariff provision is not directed to ‘‘screws
made of wood,’’ ‘‘but rather metal screws
used to fasten wood.’’ 761 F.3d at 1359.
Similarly, in Len-Ron Manufacturing Co.
v. United States, we considered a heading
for ‘‘vanity cases’’ and agreed with the CIT
that the heading covered ‘‘all forms of the
articles,’’ i.e., that the heading is eo nomine. 334 F.3d 1304, 1311 (Fed. Cir. 2003).
Nevertheless, we explained that use was a
relevant consideration because ‘‘for a
handbag or case to be classified as a vanity
case, containing, carrying, or organizing
cosmetics must be its predominant use,
rather than simply one possible use.’’ Id.
Therefore, we adopted the CIT’s definition
of vanity case as ‘‘a small handbag or case
used to hold cosmetics’’ and explained that
the at-issue ‘‘cosmetics bags are indisputably small handbags or cases designed and
intended to hold cosmetics,’’ such that they
were classifiable as vanity cases. Id. at
1312 (emphasis added) (internal quotation
marks omitted). As in those cases, use is
relevant in construing ‘‘other motor vehicles principally designed for the transport
of persons’’ in HTSUS Heading 8703 because this language suggests that classification is necessarily intertwined with
whether an imported vehicle is chiefly intended to be used to transport persons. Cf.
Irwin Indus. Tool Co. v. United States,
920 F.3d 1356, 1361 (Fed. Cir. 2019) (holding that ‘‘the terms pliers and wrenches’’
do not ‘‘inherently suggest TTT use,’’ where
‘‘the language of the particular headings

751

TTT do[ ] not imply that use or design is a
defining characteristic’’ (emphasis added)).
This conclusion follows from our precedent in Marubeni II, which implicitly recognized that HTSUS Heading 8703 inherently requires looking to intended use.
There, the court began its consideration of
HTSUS Heading 8703 by conducting what
appears to be an eo nomine analysis, without stating as much. See Marubeni II, 35
F.3d at 534–35 (construing the meaning of
the heading under the GRIs without reference to the ARIs). We explained that ‘‘the
statutory language’’ of HTSUS Heading
8703, which employs the word principally,
‘‘is clear that a vehicle’s intended purpose
of transporting persons must outweigh an
intended purpose of transporting goods’’
and that ‘‘[t]o make this determination, TTT
both the structural and auxiliary design
features must be considered.’’ Id. at 535.
Then, Marubeni II proceeded by endorsing the consideration of use. See id. at 536.
Marubeni II expressly approved of the
CIT’s reasoning below, which we acknowledged ‘‘carefully applied the proper standards’’ and evaluated not only the structural and auxiliary design features, but
also ‘‘the marketing and engineering design goals (consumer demands, off the line
parts availability, etc.).’’ Id.
For its part, the CIT’s opinion discussed
‘‘marketing, as reflective of design intent
and execution,’’ under a heading titled
‘‘[m]arketing and use indicate the Pathfinder was designed for transport of persons.’’ Marubeni Am. Corp. v. United
States (Marubeni I), 821 F. Supp. 1521,
1528 (Ct. Int’l Trade 1993). The CIT explained that the marketing evidence shows
‘‘that cargo capacity was not a major objective of the designer vis-à-vis the competition, at least as reflected in its polar
charts. Product development documentation and advertising were consistent. The
emphasis was on family use, loading gro-

752

926 FEDERAL REPORTER, 3d SERIES

ceries and sports equipment and ‘go anywhere’ élan.’’ Id. (citation omitted). The
CIT noted that, although ‘‘[t]he marketing
and product planning documents mention
cargo capacity[, it] does not appear to be a
high priority.’’ Id. at 1528 n.13. Given our
endorsement of the CIT’s consideration of
marketing materials that speak to the use
of the product, see Marubeni II, 35 F.3d at
536, we therefore have signaled that consideration of use is appropriate for
HTSUS Heading 8703, see id.; see also
Aromont, 671 F.3d at 1313 (listing appropriate considerations for use provisions,
such as ‘‘use in the same manner as merchandise which defines the class’’ and ‘‘the
manner in which the merchandise is advertised and displayed’’).
Ford’s counterarguments are unavailing.
First, Ford avers Western States Import
Co. v. United States supports the conclusion that ‘‘intended use’’ is not relevant to
the HTSUS Heading 8703 analysis. Appellee’s Br. 62 (citing 154 F.3d 1380 (Fed. Cir.
1998)). In Western States, we affirmed the
classification of merchandise under a subheading for bicycles other than bicycles
‘‘not designed for use with [wide] tires.’’
154 F.3d at 1381. The importer disagreed
with this classification and argued Customs should have considered ‘‘the intent of
the manufacturer,’’ id. at 1382, as evidenced by the fact that ‘‘the bicycles were
shipped with narrow tires,’’ id. at 1383. We
rejected this argument because it ‘‘changes
the language of the statute, according primacy to the designer’s state of mind and
limiting the examination of the objective
physical design features of a bicycle to a
single facet of that design,’’ i.e., ‘‘the tire
with which the bicycle is equipped.’’ Id.
Western States does not stand for the
proposition that a manufacturer’s design
goals cannot be considered as one of many
relevant considerations under the separate
HTSUS Heading 8703. Indeed, Marubeni
II specifically allows for consideration of

‘‘the reasons behind [certain] design decisions.’’ 35 F.3d at 536. Moreover, although
Western States recognized that HTSUS
Heading 8703’s principally designed language is ‘‘[t]he closest corollary’’ to the
provision at issue there, the panel went to
great lengths to distinguish the heading at
issue from HTSUS Heading 8703. 154 F.3d
at 1382; see id. (‘‘The specific language at
issue here requires [the importer] to establish affirmatively that its product is not
designed for a specific use, rather than
‘specially’ or ‘principally’ designed for a
specific purpose. The word ‘not’ TTT limits
the tariff provision to bikes with design
features that make them not suitable for
or capable of use with wider tires. The use
of the word ‘not’ does not contemplate a
balancing of design features to determine
what is principal, as in Marubeni[ II].’’).
The panel concluded that, ‘‘[e]ven if the
bicycles at issue were designed with narrow tires in mind, or ‘principally designed’
with narrow tires in mind, they were not
‘not designed for use with’ wider tires.’’ Id.
at 1383 (footnote omitted). Here, the principally designed language necessitates a
broader inquiry, as described in Marubeni
II, involving the ‘‘balancing of [structural
and auxiliary] design features,’’ id. at 1382,
and the ‘‘reasons behind [those] design
decisions,’’ 35 F.3d at 536.
[17] Second, Ford contends Customs
improperly considered post-importation
processing rather than limiting its evaluation to the subject merchandise’s ‘‘condition as imported.’’ Appellee’s Br. 38. ‘‘The
rule is well established that in order to
produce uniformity in the imposition of
duties, the dutiable classification of articles
imported must be ascertained by an examination of the imported article itself, in the
condition in which it is imported.’’ United
States v. Citroen, 223 U.S. 407, 414–15, 32
S.Ct. 259, 56 L.Ed. 486 (1912) (internal
quotation marks and citations omitted).

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

753

Our holding today does not controvert this
rule, as this rule does not stand for the
proposition that pre-importation activities
can never be relevant. Consideration of
these factors flows from the plain meaning
of the term ‘‘principally designed,’’ which
means chiefly ‘‘done by design or purposefully TTT ; intended[ or] planned.’’ Marubeni II, 35 F.3d at 534 (emphases added)
(internal quotation marks and citation
omitted). Indeed, Ford apparently recognizes that its argument only precludes consideration of pre-importation design goals
if we construe HTSUS Heading 8703 as
not allowing for consideration of use. Oral
Arg. at 28:03–30, http://oralarguments.cafc.
uscourts.gov/default.aspx?fl=2018-1018
3132019.mp3 (Q: ‘‘Is the condition at importation confined to just the physical
characteristics or do you look to the structure of the sale and marketing and all of
that TTT not on a post-importation look,
but on a pre-importation look?’’ A: ‘‘I think
that depends on what kind of heading this
is. This is not a use provision. This is an eo
nomine provision TTTT’’). Because the
‘‘principally designed for’’ language of
HTSUS Heading 8703 inherently requires
considerations of intended use, consideration of pre-importation design goals is
relevant here. Therefore, we consider preimportation design goals below, along with
the subject merchandise’s condition as imported.

to consider principal or intended use, or
the [attendant] factors’’). Nevertheless, because the parties do not allege that a
‘‘genuine dispute exists as to the nature of
the subject merchandise, the two-step inquiry collapses into a question of law,’’ and
we proceed by conducting a proper analysis of the relevant headings. ADC, 916
F.3d at 1017 (internal quotation marks and
citation omitted). See generally Appellant’s
Br.; Appellee’s Br.

We conclude this appeal presents one of
the very limited circumstances where the
relevant heading, HTSUS Heading 8703, is
an eo nomine provision for which consideration of use is appropriate because
HTSUS Heading 8703 inherently suggests
looking to intended use. See Kahrs, 713
F.3d at 646 (‘‘Generally, we should not
read a use limitation into an eo nomine
provision unless the name itself inherently
suggests a type of use.’’). The CIT erred
by not considering use. See Ford, 254 F.
Supp. 3d at 1332 (finding ‘‘it unnecessary

The Government argues that the CIT
erred in classifying the subject merchandise under HTSUS Heading 8703 because
‘‘the structural and auxiliary design features of the [Transit] Connect 6/7—viewed
as a whole—failed to demonstrate that the
vehicle was ‘principally designed’ for passengers.’’ Appellant’s Br. 37. The Government also avers that ‘‘Ford marketed the
[Transit] Connect 6/7 exclusively as a cargo van; consumers and industry publications recognized the [Transit] Connect 6/7
exclusively as a cargo van; purchasers

B.

The Subject Merchandise Does Not
Fall Within HTSUS Heading 8703

[18] In classifying the subject merchandise under HTSUS Heading 8703, the
CIT held the subject merchandise’s ‘‘structural and auxiliary design features point to
a principal design for the transport of persons.’’ Ford, 254 F. Supp. 3d at 1328. For
structural design features, the CIT found
support for this conclusion in ‘‘the Transit
Connect 6/7’s structural similarity to the
Transit Connect 9 passenger wagon and its
consistency with relevant parts of [the]
[ENs].’’ Id. at 1326. For auxiliary design
features, the CIT determined ‘‘the CRSV-2
is still a seat, albeit a cheaper and, perhaps, less attractive one,’’ and the CIT
pointed to ‘‘additional auxiliary design features,’’ such as ‘‘carpeted footwells’’ and
‘‘child-locks in the sliding doors’’ to support its conclusion. Id. at 1328.

754

926 FEDERAL REPORTER, 3d SERIES

used the [Transit] Connect 6/7 exclusively
as a cargo van; and Ford itself described
the [Transit] Connect 6/7 exclusively as a
cargo van.’’ Id. at 38–39. We agree with
the Government that the CIT erred in
classifying the subject merchandise under
HTSUS Heading 8703.
[19–21] The relevant inquiry for classification under HTSUS Heading 8703 is
‘‘that a vehicle’s intended purpose of transporting persons must outweigh an intended purpose of transporting goods’’ and
that, ‘‘[t]o make this determination, TTT
both the structural and auxiliary design
features must be considered.’’ Marubeni
II, 35 F.3d at 535. Structural design features include ‘‘basic body, chassis, TTT suspension design, [and] style and structure
of the body control access to rear.’’ Id. at
534 (brackets and ellipsis omitted). Auxiliary design features include ‘‘vehicle height,’’
certain features of the ‘‘rear seats,’’ ‘‘footwells,’’ ‘‘seat belts,’’ and other passenger
amenities. Id. at 537. In addition, certain
use considerations may be relevant, such
as ‘‘the marketing and engineering design
goals (consumer demands, off the line
parts availability, etc.).’’ Id. at 536.
While not binding, the ENs help guide
our understanding of the heading. See
Chemtall, 878 F.3d at 1019. The ENs state
that the heading covers ‘‘[f]our-wheeled
motor vehicles with tube chassis, having a
motor-car type steering system (e.g., a
steering system based on the Ackerman
principle).’’ EN(6), Heading 8703, HTSUS.
The ENs identify ‘‘certain features which
indicate that the vehicles are principally
designed for the transport of persons rather than for the transport of goods,’’ such
as a GVWR ‘‘rating of less than [five]
ton[s],’’ and ‘‘a single enclosed interior
space comprising an area for the driver
and passengers and another area that may
be used for the transport of both persons
and goods.’’ EN, Heading 8703, HTSUS.

The ENs also list certain features that
‘‘are indicative of the design characteristics’’ for HTSUS Heading 8703, such as
the (1) ‘‘[p]resence of permanent seats
with safety equipment (e.g., safety seat
belts or anchor points and fittings for installing safety seat belts) for each person
or the presence of permanent anchor
points and fittings for installing seats and
safety equipment in the rear area,’’ (2)
‘‘[p]resence of rear windows along the two
side panels,’’ (3) ‘‘[p]resence of sliding,
swing-out or lift-up door or doors, with
windows, on the side panels or in the
rear,’’ (4) ‘‘[a]bsence of a permanent panel
or barrier between the area for the driver
and front passengers and the rear area
that may be used for the transport of both
persons and goods,’’ and (5) ‘‘[p]resence of
comfort features and interior finish and
fittings throughout the vehicle interior that
are associated with the passenger areas of
vehicles (e.g., floor carpeting, ventilation,
interior lighting, ashtrays).’’ EN, Heading
8703, HTSUS.
On balance, the structural design features, auxiliary design features, and inherent use considerations establish that the
subject merchandise is not classifiable under HTSUS Heading 8703. The subject
merchandise is not principally designed for
the transport of persons. We discuss each
of these considerations in turn.
1. Structural Design Features
The structural design features favor a
finding that the subject merchandise is
designed for transport of passengers. The
Transit Connect 6/7s ‘‘shared the same
chassis and drivetrain with the Ford Focus passenger vehicle.’’ Def.’s Resps. to
Pl.’s Statement of Material Facts ¶ 4,
Ford Motor Co. v. United States, No. 1:13cv-00291-MAB (Ct. Int’l Trade Mar. 4,
2016), ECF No. 91-13 (citations omitted).
Similarly, the imported Transit Connect

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

6/7s share the following structural features
with Transit Connect 9s: ‘‘a Duratec
2.0[ liter], four cylinder gasoline engine’’;
‘‘a steel unibody construction’’; ‘‘frontwheel drive’’; ‘‘Macpherson strut front suspension’’; ‘‘rear passenger seats with seat
anchors’’6; ‘‘underbody bracing’’; ‘‘permanent bracing in the side pillars of the car
body’’; ‘‘no TTT panel or barrier between
the first and second row of seats’’; and
‘‘ground clearance of 8.2 inches.’’ J.A.
4845–50. While not dispositive, see Marubeni II, 35 F.3d at 536 (‘‘The fact that a
vehicle is derived in-part from a truck or
from a sedan is not, without more, determinative of its intended principal design
objectives which were passenger transport
and off-road capability.’’), these structural
features demonstrate similarities between
the subject merchandise and Ford’s Transit Connect 9s, which are imported as fivepassenger vehicles and do not undergo
post-importation processing to convert the
passenger vehicles into cargo vans, see
J.A. 5948. Notably, the evidence indicates
that the Duratec ‘‘2.0 liter engine’’ and
front-wheel drive are ‘‘more commonly
used on passenger vehicles,’’ a fact which
indicates the significance of these features
for classification as a passenger vehicle.
J.A. 4846.
In addition, all Transit Connects had
‘‘swing-out front doors with windows, second-row sliding side doors with windows’’
that met federal ‘‘safety standards for side
impact,’’ and ‘‘swing-out rear doors, some
of which had windows.’’ J.A. 4849. The
ENs, which list ‘‘[p]resence of rear windows along the two side panels’’ and
‘‘[p]resence of sliding, swing-out or lift-up
door or doors, with windows, on the side
panels or in the rear’’ as indicative of
6.

Although the Transit Connect 6/7s have rear
seats when imported, the discussion below
regarding auxiliary design features demonstrates that the subject merchandise is not
principally designed to use the rear area for

755

design characteristics, demonstrate that
these features of the subject merchandise
are consistent with a passenger vehicle.
EN, Heading 8703, HTSUS. However, a
Ford brochure indicates the rear doors are
designed for cargo, describing the ‘‘[r]ear
[c]argo [d]oors’’ as capable of ‘‘be[ing]
opened wide, up to 180 degrees, for easy
access to the expansive cargo area to make
loading easier’’ and stating the ‘‘[w]ide
rear opening makes rear access and loading or unloading easy.’’ J.A. 2825 (emphasis added); see J.A. 2826 (highlighting the
‘‘[r]ear cargo door opening width TTT [and]
height’’ as ‘‘[k]ey [i]nterior [c]argo [d]imensions,’’ along with ‘‘[c]argo length’’ and
‘‘[l]ow load floor height TTT [that] makes
loading and unloading convenient’’). Moreover, the two types of Transit Connects
differed in that Ford assigned the Transit
Connect 6/7s a higher ‘‘GVWR of 5[,]005
[pounds],’’ while the Transit Connect 9s
‘‘are assigned a GVWR of 4[,]965’’ pounds,
indicating the subject merchandise is designed to bear more weight. J.A. 5945; see
49 C.F.R. § 523.2. This factor, however,
does not weigh heavily against classification under HTSUS Heading 8703 because
the ENs explain a GVWR ‘‘rating of less
than [five] ton[s],’’ which describes both
types of Transit Connects, ‘‘indicate[s] that
the vehicles are principally designed for
the transport of persons.’’ EN, Heading
8703, HTSUS. Therefore, many of the
structural design features favor the CIT’s
classification under HTSUS Heading 8703.
2. Auxiliary Design Features
A review of the auxiliary design features
reveals the Transit Connect 6/7s were not
principally designed for the transport of
the transport of persons. See infra Section
II.B.2. That discussion, therefore, bears on
our analysis of the structural design features
to the extent it relates to the presence of the
rear seats.

756

926 FEDERAL REPORTER, 3d SERIES

passengers. Admittedly, the subject merchandise has some features indicative of
passenger vehicles, including ‘‘seat belts
for every seating position,’’ J.A. 4848;
‘‘child-lock in the sliding side doors,’’ J.A.
4849; ‘‘footwells in front of a second row
seat,’’ J.A. 4850, ‘‘head room of more than
[fifty] inches in the rear,’’ J.A. 4851; ‘‘dome
lighting in the front, middle, and rear of
the vehicle,’’ J.A. 4851; and ‘‘coat hooks in
the second row,’’ J.A. 4852; see EN, Heading 8703, HTSUS (identifying the presence
of ‘‘comfort features,’’ such as ‘‘interior
lighting’’ as indicative of a passenger vehicle). However, the auxiliary design features of the rear seating area, when
viewed in the aggregate, demonstrate the
Transit Connect 6/7s were not principally
designed for the transportation of passengers, with the CRSV-2 designed to be
temporary and removed during post-importation processing.
Specifically, the Transit Connect 6/7’s
second row seats ‘‘did not have headrests,
certain comfort wires, or a tumble lock
mechanism.’’ J.A. 4847; see J.A. 5936 (explaining that the ‘‘seat back wires provide[ ]’’, inter alia, ‘‘lumbar support’’ and
‘‘passenger comfort’’). The second row
seats were ‘‘covered in a reduced cost fabric’’ that was ‘‘different fabric [from] the’’
fabric used in the Transit Connect 9s. J.A.
4847. The Transit Connect 6/7s did not
have (1) ‘‘a cargo mat,’’ J.A. 5553 (citations
omitted); (2) ‘‘side airbags behind the front
seats,’’ Pl.’s Resp. to Def.’s Statement of
Material Facts ¶ 18, Ford Motor Co. v.
United States, No. 1:13-cv-00291-MAB (Ct.
Int’l Trade Mar. 7, 2016), ECF No. 99-5
(citation omitted); or (3) speakers, hand7.

Because Ford made the subject merchandise to order, it knew that none of the CRSV2s in the Transit Connect 6/7s would actually
be used. See J.A. 4844 (acknowledging that all
Transit Connects are made to order), 5554
(‘‘Prior to the merchandise at issue being ordered or manufactured, Ford had entered into

holds, or vents behind the front seats, id.
¶¶ 19–21 (citations omitted); see EN,
Heading 8703, HTSUS (identifying presence of ‘‘ventilation’’ as a ‘‘comfort feature[ ]’’ for passengers, but rear ventilation
is lacking in the subject merchandise).
Ford ‘‘left the painted metal floor of the
cargo area exposed,’’ which weighs against
classification in HTSUS Heading 8703.
J.A. 5553; see EN, Heading 8703, HTSUS
(stating the presence of ‘‘interior finish[ings]’’ is indicative of a passenger vehicle). There is a fundamental reason behind
these design decisions. See Marubeni II,
35 F.3d at 536 (endorsing the CIT’s consideration of ‘‘the reasons behind [certain]
design decisions,’’ as a relevant consideration (emphasis added)). Ford employed
the CRSV-2 to reduce costs, while facilitating post-importation processing of converting the Transit Connect 6/7s into cargo
vans by using sham rear seats that would
be stripped from the vehicles. See J.A.
5941–42 (explaining that the changes to
the second row seats were a ‘‘cost reduction item,’’ and ‘‘these seats will be
scrapped in [the] U[nited] S[tates and] will
not be used anytime’’).7 In fact, the Transit
Connects 6/7s had a different sixth-digit in
their VIN from the Transit Connect 9s to
indicate which vehicles should undergo
post-importation processing and removal
of the rear seat. See J.A. 5540 (‘‘Ford
never sold any Transit Connect vehicles
with a 6 or 7 in the sixth digit of the VIN
with a second row of seats or seatbelts.’’
(citation omitted)).
Even if the CIT is correct that the
Transit Connect 6/7s’ rear seat is capable
of functioning as passenger seats in the
a contract with its port processor to remove
and discard 100 percent of the second row
seats, seat belts and unordered windows from
the merchandise at issue, and to cover the
footwells and install a cargo mat over the
exposed metal floor.’’).

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

condition as imported, see Ford, 254 F.
Supp. 3d at 1327–28, the proper inquiry is
what the auxiliary design features tell us
about the ‘‘intended purpose’’ of the vehicle, Marubeni II, 35 F.3d at 535; see
Heading 8703, HTSUS (including ‘‘motor
vehicles principally designed for the
transport of persons’’ (emphasis added)).
Although the EN to HTSUS Heading 8703
recognizes that indicative of passenger vehicles is the ‘‘[p]resence of permanent
seats with safety equipment TTT or the
presence of permanent anchor points and
fittings for installing seats and safety
equipment in the rear area,’’ the CRSV-2
is not permanent. The seat and the attendant seatbelts are designed to be removed.8
Therefore, as Customs recognized, Ford’s
pre-importation design goals were that the
subject merchandise could be constructed
in such a way that ‘‘only minor interior
changes were necessary to meet the design
criteria of transporting cargo.’’ HQ
H220856, 2013 WL 1793233, at *5; see id.
(stating it took ‘‘less than a minute’’ to
remove the CRSV-2 and ‘‘under [five] minutes’’ to add ‘‘rear flooring to cover the
exposed anchor points’’). Indeed, ‘‘Ford did
not [even] conduct consumer testing or
surveys prior to using the [CRSV-2].’’ J.A.
5944.9 The CIT erred in its evaluation of
these auxiliary design features, which compel the conclusion that the subject merchandise is designed to transport cargo.
8.

9.

The record demonstrates the subject merchandise ‘‘was stripped of its second row
seats[ and] second row seat belts,’’ J.A. 5554,
and ‘‘[t]he anchor holes for the second row
seat are’’ designed to be ‘‘plugged and no
longer readily accessible after post-importation processing,’’ J.A. 5948 (internal quotation
marks and citation omitted).
Ford ‘‘considered affixing the windows to
the sliding glass doors of certain Transit Connect vehicles with tape to increase the ease of
removal by the port processers,’’ but ultimate-

3.

757

Relevant Use Considerations

[22, 23] The relevant use considerations strongly disfavor classification as a
vehicle principally designed for the transport of passengers due to evidence of
Ford’s post-importation processing and its
effect on the intended use of the Transit
Connect 6/7s. While we conclude that
HTSUS Heading 8703 is an eo nomine
provision, not a principal use provision, the
criteria for determining principal use are
also relevant here. When evaluating principal use, a court makes ‘‘a determination as
to the group of goods that are commercially fungible with the imported goods.’’
BenQ Am. Corp. v. United States, 646
F.3d 1371, 1380 (Fed. Cir. 2011) (internal
quotation marks and citation omitted). To
make this determination, a court may look
to the factors outlined in United States v.
Carborundum Co. (‘‘the Carborundum factors’’). Id.; see Carborundum, 536 F.2d
373, 377 (CCPA 1976). Particularly relevant here are the following Carborundum
factors: ‘‘the general physical characteristics of the merchandise,’’ ‘‘use in the same
manner as merchandise which defines the
class,’’ ‘‘the expectation of the ultimate
purchasers,’’ and ‘‘the environment of the
sale, such as accompanying accessories and
the manner in which the merchandise is
advertised and displayed.’’ Aromont, 671
F.3d at 1313.10 Regarding general physical
characteristics, we explained above that,
whereas the structural design features
ly did not adopt this feature. J.A. 5553 (emphasis added) (citation omitted).
10. The other Carborundum factors are: ‘‘the
economic practicality of so using the import,’’
‘‘the channels of trade in which the merchandise moves,’’ and ‘‘the recognition in the
trade of this use.’’ Aromont, 671 F.3d at 1313
(citation omitted). Having considered the record evidence as to these other factors, we find
nothing that alters our conclusion as to the
use analysis.

758

926 FEDERAL REPORTER, 3d SERIES

align with a passenger vehicle, the auxiliary design features support the conclusion
that the subject merchandise is not designed for passengers. See supra Section
II.B.1–2.
Regarding manner of use and consumer
expectations, the subject merchandise was
made to order and, because the post-importation processing occurred immediately
after entry, it ‘‘was delivered to customers
as two-seat cargo vans,’’ without rear
seats, seatbelts, unordered windows, and
second row footwells. J.A. 5555; see J.A.
5548, 5554. Ford’s market research showed
that the ‘‘Transit Connect has little appeal
as a personal use vehicle—its industrial
design and austere interior are keys to
rejection. Nevertheless, it continues to resonate as a viable commercial vehicle,’’ to
be used for, inter alia, ‘‘quick deliveries,
pickups, and service calls.’’ J.A. 4751. In
Carborundum, our predecessor court recognized that imports may be ‘‘specially
processed to provide the import with a
utility different from the class,’’ 536 F.2d
at 377; see Aromont, 671 F.3d at 1313
(‘‘[A]ctual use of the particular imported
goods is evidence of the principal use of
the merchandise involved.’’), which is the
case here because the Transit Connect 6/7s
undergo post-importation processing and
are not utilized like passenger vehicles, see
J.A. 5554–55; see also HQ H220856, 2013
WL 1793233, at *6 (‘‘The Ford website TTT
features the Transit Connect [6/7]s in use
as cargo/delivery vehicles by businesses
such as the Maid Group, Danny Armand’s
Market[,] and Boo Boo Busters TTTT’’ (emphasis added) (internal quotation marks
omitted)).
11. The Government avers that the CIT erred
in classifying Ford’s subject merchandise under HTSUS Heading 8703 because Ford’s installation of the CRSV-2 seats constituted ‘‘a
disguise or artifice.’’ Appellant’s Br. 26 (internal quotation marks omitted). Because we
conclude that the CIT erred in classifying the

Regarding advertising, Ford’s brochures
market the Transit Connect 6/7s as a cargo van, but list the Transit Connect 9s as
passenger vehicles. See J.A. 2798 (listing
the Transit Connect 6/7s (i.e., the Van
model) next to the Transit Connect 9s (i.e.,
the Wagon model), and advertise that the
Transit Connect 6/7s do not contain passenger space in the second row but have
cargo capacity of ‘‘129.6’’ cubic feet ‘‘[b]ehind [the] first-row seat,’’ whereas the
Transit Connect 9s have ‘‘67.1’’ cubic feet
of passenger space in the second row but
no cargo space behind ‘‘[b]ehind [the] firstrow seat’’), 2816 (highlighting that all
Transit Connects have ‘‘[s]erious payload
and GVWR capacity’’), 2818 (advertising
only ‘‘driver and front passenger’’ seats in
the Transit Connect 6/7s), 2820 (providing
‘‘optional equipment’’ and stating ‘‘premium carpeted floor mats’’ for ‘‘rear passenger area’’ are ‘‘not available’’ as an option
for the Transit Connect 6/7s, but are ‘‘optional’’ in the Transit Connect 9s (capitalization modified)), 2824 (marketing that
Transit Connect 6/7s ‘‘provide up to 129.6
cubic feet of maximum cargo capacity’’
(emphasis added)). The Transit Connect
6/7s’ use weighs heavily against classification under HTSUS Heading 8703. Accordingly, the Carborundum factors support
the conclusion that the subject merchandise is not classifiable under HTSUS
Heading 8703.11
C.

The Subject Merchandise Is Properly
Classified Under HTSUS Heading
8704

[24] In evaluating the competing headings, the CIT held, ‘‘having found that the
subject merchandise under HTSUS Heading
8703 by applying an improper legal analysis,
we need not address the Government’s alternative theory. See NTN Bearing Corp. v. United
States, 74 F.3d 1204, 1209 n.4 (Fed. Cir.
1995) (declining to address an alternative argument).

FORD MOTOR CO. v. U.S.
Cite as 926 F.3d 741 (Fed. Cir. 2019)

subject merchandise is classifiable under
[HTSUS H]eading 8703, [it] need not determine whether the subject merchandise
is also classifiable under [HTSUS H]eading 8704’’ because HTSUS Heading 8703 is
more specific. Ford, 254 F. Supp. 3d at
1332 n.64; see id. at 1316. The CIT, however, recognized that, ‘‘if the Transit Connect
6/7 is not classifiable under [HTSUS
H]eading 8703, it falls within [HTSUS
H]eading 8704.’’ Id. (footnote omitted). The
Government argues that the Transit ‘‘Connect 6/7 should be classified as a cargo
vehicle under [HTSUS] Heading 8704.’’
Appellant’s Br. 35 (capitalization modified).
We agree with the Government.
[25, 26] We begin by determining
whether HTSUS Heading 8704 is an ‘‘eo
nomine or use provision[ ].’’ Schlumberger,
845 F.3d at 1164 (citations omitted). Principal use provisions are governed by ARI
1(a), and a principal use ‘‘analysis involves
determining the use which exceeds any
other single use of the merchandise in the
United States.’’ R.T. Foods, 757 F.3d at
1355 (internal quotation marks and citation
omitted). HTSUS Heading 8704, which
covers ‘‘[m]otor vehicles for the transport
of goods,’’ HTSUS Heading 8704 (emphasis added), is a principal use provision
because the heading identifies the chief
use of the covered merchandise as of a
kind used to transport goods, cf. Aromont,
671 F.3d at 1312 (finding ‘‘preparations
there for’’ is a ‘‘principal use provision’’
because it identified preparations primarily used for soups and broths); BenQ, 646
F.3d at 1374 (recognizing that a principal
use analysis governs, where a chapter note
clarified that a heading covered ‘‘unit TTT
of a kind solely or principally used in an
automatic data processing system’’).
As discussed above, the balance of the
Carborundum factors demonstrate that
the made-to-order Transit Connect 6/7s
are principally (if not exclusively) used for

759

the transport of goods, rather than passengers. See supra Section II.B.3. The design
features demonstrate the subject merchandise is ‘‘tailored to meet the specific needs
of’’ consumers seeking to transport goods.
United States v. Border Brokerage Co.,
706 F.2d 1579, 1582 (Fed. Cir. 1983). Thus,
classification under HTSUS Heading 8704
is appropriate.
D. The Correct Subheading for the
Subject Merchandise Is HTSUS
Subheading 8704.31.00
[27] Having determined that the subject merchandise is properly classified under HTSUS Heading 8704, we now turn to
GRI 6, which governs classification at the
subheading level. See Orlando Food, 140
F.3d at 1442. At the sixth-digit subheading
level, the subject merchandise is not described by HTSUS Subheading 8704.10,
which provides ‘‘[d]umpers designed for
off-highway use,’’ as there is no evidence
that Transit Connect 6/7s are designed for
transporting excavated materials. See EN,
Heading 8704, HTSUS (explaining that
dumpers are ‘‘sturdily built vehicles with a
tipping or bottom opening body, designed
for the transport of excavated or other
materials’’). HTSUS Heading 8704 is then
divided into three categories: (1) HTSUS
Subheadings 8704.21, 8704.22, and 8704.23,
which cover ‘‘[o]ther [than dumpers designed for off-highway use], with compression-ignition internal combustion piston engine (diesel or semi-diesel),’’ (2) HTSUS
Subheadings 8704.31 and 8704.32, which
cover ‘‘[o]ther [than dumpers designed for
off-highway use], with spark-ignition internal combustion piston engine,’’ and (3)
HTSUS Subheading 8704.90, which covers
‘‘[o]ther.’’ See Rollerblade, Inc. v. United
States, 282 F.3d 1349, 1354 (Fed. Cir.
2002) (holding that, where merchandise is
properly classified under a particular
heading, but does not fall within a specific

760

926 FEDERAL REPORTER, 3d SERIES

HTSUS Subheading 8704.31, and, because
there is only one eighth-digit level designation under this subheading, we hold the
subject merchandise is properly classified
under HTSUS Subheading 8704.31.00.

subheading, it is properly classified under
the relevant heading’s ‘‘basket’’ or ‘‘catchall’’ provision). Because the subject merchandise has ‘‘a spark-ignition internal
combustion reciprocating piston engine,’’
J.A. 4845, it is covered by the internal
combustion piston engine description that
applies to both HTSUS Subheadings
8704.31 and 8704.32. HTSUS Subheading
8704.31 covers merchandise with a
‘‘[GVWR] not exceeding [five] metric
tons,’’ while HTSUS Subheading 8704.32
covers merchandise with a ‘‘[GVWR] exceeding [five] metric tons.’’ The subject
merchandise has a GVWR of 5,005 pounds,
J.A. 5945, which is less than five metric
tons, see J.A. 1308 (stating, in a Customs
opinion, that a GVWR of 5,005 pounds
‘‘converts to 2.27 metric tons’’). Therefore,
the subject merchandise falls under

[28] We have considered Ford’s remaining arguments and find them unpersuasive.12 Accordingly, the Judgment of
the U.S. Court of International Trade is

12. Inter alia, Ford argues in a footnote that
‘‘[t]he CIT did not reach Ford’s alternative
arguments that classification under [HTSUS
Heading] 8704 is contrary to Customs’ prior
treatment and established and uniform practice. If this [c]ourt does not affirm, it should
give the CIT an opportunity to address those
arguments in the first instance.’’ Appellee’s
Br. 72 n.8 (citing Ford, 254 F. Supp. 3d at
1333 n.65). ‘‘Arguments raised only in footnotes TTT are waived.’’ Otsuka Pharm. Co. v.
Sandoz, Inc., 678 F.3d 1280, 1294 (Fed. Cir.

2012); cf. Nalco Co. v. Chem-Mod, LLC, 883
F.3d 1337, 1355 (Fed. Cir. 2018). We decline
to exercise our discretion to consider Ford’s
argument here, where it fails to cite any governing law or develop what facts demonstrate
that Customs had an ‘‘established and uniform practice.’’ Appellee’s Br. 72 n.8; see Mirror Worlds, LLC v. Apple Inc., 692 F.3d 1351,
1358 (Fed. Cir. 2012) (finding ‘‘a passing reference in a footnote’’ was insufficient to ‘‘preserve the issue for appeal’’).

CONCLUSION

REVERSED

,

